                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: A05040018                                                    ))I     ,   Page 1 of 1



          OIG opened this investigation based on a proactive review of Participant Support funds allocated
          in NSF Grants and Awards. The purpose of the review was to ensure compliance with the
          applicable laws, regulations, and award conditions.

          The grantee' was selected and asked to provide financial information and supporting
          documentation related to an NSF award.2 The grantee submitted records and documentation as
          requested and a review noted various expenses charged to the grant which did not appear to be
          allowable. The grantee provided supporting documentation and an explanation of the questioned
          costs. The grantee through a review of expenses charged to the grant realized accounting errors
          and stated that a refund would be processed via a Federal Cash Transactions Report Adjustment.

          The grantee has properly accounted for all grant expenditures, has complied with the award
          conditions, and has refunded NSF for errors made. All issues have been resolved.

          Accordingly, this case is closed.
